ON-TIME-PERFORMANCE
INCENTIVES:
Inaccurate Invoices Were Paid




                            Report No. OIG-A-2012-013 | June 29, 2012
                                                                                                          2
                             Amtrak Office of Inspector General
               On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                         Report No. OIG-A-2012-013, June 29, 2012

SUMMARY OF RESULTS

Southern Pacific invoices to Amtrak for on-time-performance payments from
January 1997 through December 1999 contained certain errors. Although Amtrak’s
invoice-review process had detected about $1 million in errors, we found additional
errors that resulted in $1,430,113 in overpayments. These additional errors went
undetected and the invoices were paid because, as previously reported, Amtrak did not
have in place an adequate invoice-review process during that period. As discussed in a
recently issued report, however, Amtrak is making progress in improving its invoice-
review process (see Appendix II). Amtrak’s Chief Financial Officer agreed with our
recommendation to take action to recover the $1,430,113 that Amtrak overpaid the host
railroad.


OPERATING AGREEMENTS
The Rail Passenger Service Act of 1970 created the National Railroad Passenger
Corporation, commonly known as Amtrak, to operate a national rail passenger system.
The act allowed Amtrak to contract with host railroads, such as the Southern Pacific
Transportation Company,1 for certain services, equipment, and facilities, in order for
Amtrak to provide national rail passenger service.

Operating agreements were developed between Amtrak and host railroads to serve as a
basis for determining costs associated with these services, equipment, and facilities.
Amtrak included incentives in these agreements to encourage host railroads to facilitate
Amtrak’s on-time operations.2 The incentives relate to mutually agreed-upon running




1 Southern Pacific merged with Union Pacific Railroad Company on February 1, 1998. Union Pacific is
responsible for Southern Pacific routes and the invoicing for services provided to Amtrak under Southern
Pacific’s operating agreement with Amtrak.
2 When an Amtrak train operates on tracks owned or operated by host railroads, the host’s dispatching

center generally has complete control over the Amtrak train’s movement. An Amtrak engineer must
comply with the host railroad’s instructions, such as slowing down, stopping, or sitting on a side track for
a passing train.
                                                                                                         3
                            Amtrak Office of Inspector General
              On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                        Report No. OIG-A-2012-013, June 29, 2012

times between established checkpoints3 during a passenger train trip. Generally,
performance payments and related incentives are calculated using provisions described
in appendix V (Performance Payments and Penalties) of the railroad operating agreements.

Effective November 1, 1983, Amtrak and Southern Pacific Transportation Company
negotiated the Third Amendment Agreement, which contains the provisions that are
relevant to our audit. The amendment agreement provisions were further amended by
subsequent Amendment Agreement Change records (AACs).4 We reviewed and used
the agreement and applicable AACs as the basis for determining the accuracy of
Southern Pacific’s invoices for on-time-performance incentives. The amendment
agreement authorized the host railroad to submit monthly invoices for the services
provided to Amtrak.

The amendment agreement also gave the host railroad the right to additional payments
for schedule adherence.5 On-time-performance incentive payments are set forth in
appendix V of the agreement:

        Performance payments will be paid for a train at each performance checkpoint
        where the train attains an on-time performance greater than 80% during a
        month. Performance penalties will be assessed against the train at performance
        checkpoints where the on-time performance is less than 70% during a month.

Appendix V of the operating agreement also sets forth the specific criteria, generally
referred to as tolerances,6 to be used to determine the on-time-performance percentage.

3 A checkpoint is a term used in an operating agreement to identify the initial starting point and endpoint
of a trip or partial segment of a trip. The checkpoints are used to calculate on-time-performance
incentives. The checkpoint is usually a specific location, such as a station or a crossover point between
two tracks on the same railroad or between different railroads. There may be many checkpoints on a
long-distance train route. Conversely, for a short route, such as Southern Pacific’s line from Eugene to
Portland, Oregon (Train 750), there may be only one checkpoint—the endpoint.
4 An Amtrak official confirmed that the AAC records we used represent all amendments to the agreement

that are applicable to our audit. Further, the official indicated that she was informed that no side
agreements existed that were applicable to our audit.
5 Schedule adherence refers to the ability of the host railroad to ensure that an Amtrak train operates on

time—within the run time specified in the agreement plus the aggregate amount of time of allowable
tolerances (delays).
6 Tolerances are allowances given for various reasons to the host railroad. The allowances are in the form

of delay minutes that can be applied to an Amtrak train that is late in arriving at a checkpoint. The net
effect of applying these minutes can result in a train being recorded as being on time.
                                                                                                              4
                             Amtrak Office of Inspector General
               On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                         Report No. OIG-A-2012-013, June 29, 2012

The appendix also states how the provisions should be applied and how the on-time-
performance incentives should be calculated. For these purposes, a train is considered
on time if it is calculated as arriving at a checkpoint on or before the scheduled arrival
time, after taking into consideration allowed tolerance minutes.



SOUTHERN PACIFIC’S INVOICING WAS FREQUENTLY IN
ERROR

Amtrak’s invoice-review process had detected about $1 million in errors; however, we
found additional errors that resulted in $1,430,113 in overpayments. Amtrak did not
detect these additional errors because, as previously reported,7 it did not have in place
an adequate invoice-review process during that period. We recently reported,8
however, that Amtrak is making progress in improving its invoice-review process (see
Appendix II).

Four categories of calculation errors contributed to the inaccurate invoices that led to
over $1.4 million in overpayments. The invoice errors included (1) inappropriately
claimed tolerances, (2) use of misapplied and/or expired contract provisions, and
(3) inaccurate departure and arrival times. The impact of these three categories of errors
alone accounted for about 94 percent of the total number of errors we identified.

In the last category of errors, the host railroad did not accurately report the on-time
status of trains. This accounted for about 6 percent of the total errors.




7 On-Time-Performance Incentives: Inaccurate Invoices were Paid Due to Long-standing Weaknesses in Amtrak’s
Invoice-Review Process (Audit Report No. 403-2010, April 21, 2011).
8 Amtrak Invoice Review: Inaccurate Invoices Were Paid, But Progress is Being Made to Improve the Invoice-

Review Process (Report No. OIG-A-2012-005, February 16, 2012).
                                                                                                        5
                            Amtrak Office of Inspector General
              On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                        Report No. OIG-A-2012-013, June 29, 2012

Figure 1 provides a relative percentage breakdown for the types of errors we identified.

                                              Figure 1.
                Southern Pacific On-time Performance Invoice Errors
                                6%
                       7%

                                                                        Unallowed/Unsupported
                                                                        tolerances
                                                                        Incorrect application of
                                                                        contract provisions
                                                                        Incorrect arrival/departure
                                                         56%            time reporting
              31%
                                                                        On-time trips not claimed




       Source: Amtrak OIG analysis of Southern Pacific and Amtrak data



The following sections discuss the four error categories we identified. 9


Invoices contained unallowed/unsupported tolerances.

Southern Pacific claimed tolerances for delays that were either not allowed by the
agreement or not supported by adequate source documents; these contributed to over
half (about 56 percent) of the total errors. For example, for Train 11 that operated
through the segment from Klamath Falls, Oregon, to Sacramento, on August 10, 1999,
the host railroad claimed a miscellaneous tolerance of 20 minutes for “XOY add
2 express cars to rear.” XOY, which represents the Oakland Yard, is not a station or a
checkpoint within the segment. Further, no agreement provision specifically allows for
additional tolerances related to adding express cars. This error contributed to the $3,373
in overpayments for Train 11 in this segment for August 1999.



9In the following examples of errors, in each category, other errors may have also contributed to the
overpayments.
                                                                                                         6
                            Amtrak Office of Inspector General
              On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                        Report No. OIG-A-2012-013, June 29, 2012

In another example, the host railroad claimed a station tolerance allowance of
824 minutes on August 31, 1999, for Train 1 from Tucson to El Monte, California. The
claimed tolerance was not supported by Amtrak delay reports. Based on the times in
these reports, the total station tolerance allowed should have been 27 minutes—just
3 percent of the 824 minutes claimed. This error contributed to the $19,452 in
overpayments for Train 1 in this segment for August 1999.



Invoices were based on contract provisions that were incorrectly applied or that had
expired.

Southern Pacific inappropriately used expired agreement provisions and incorrectly
applied these provisions in calculating its incentives, which accounted for about
31 percent of the total errors. The host railroad used running times, basic tolerance
allowances, and performance rates in its calculations that were not accurate or no longer
applied. For example, for Train 750 that serves the Eugene to Portland, Oregon, route,
the host railroad used an incorrect running time and basic tolerance for August 1999.
The host railroad used a 20 minutes higher running time and a 5 minutes greater basic
tolerance than the times allowed by the agreement. This error contributed to the $15,103
in overpayments for August 1999.

Further, the host railroad did not consistently use the performance rates10 contained in
the agreement provisions. For example, for Trains 725/74511 and 728, the host railroad
used the former performance rates of $3,640 and $2,840, respectively, as the basis for its
calculations for August 1999, as opposed to the lower applicable rates of $2,940 and
$1,780. For August 1999, these errors contributed to the $5,846 in overpayments for the
single-segment Trains 725/745 and $9,733 in overpayments for the single-segment
Train 728.




10 Performance rates are the base rates used to calculate the host railroad’s monthly incentives earned or
penalties incurred based on the on-time performance of Amtrak trains over the established rail segments.
11 Train 725 operates Monday through Friday, while Train 745 runs on Saturday and Sunday. Both trains

serve the route between Sparks, Nevada, and San Jose, California.
                                                                                                           7
                             Amtrak Office of Inspector General
               On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                         Report No. OIG-A-2012-013, June 29, 2012

Southern Pacific also incorrectly applied the agreement provisions related to claiming
“Do Not Count”12 (DNC) status. Although it missed opportunities to claim qualifying
DNCs in its favor, for the most part the host railroad claimed DNC status for situations
that were not consistent with provisions or that were not supported. For instance, on
August 3, 1999, for Train 1’s segment from San Antonio to El Paso, Texas, the host
railroad claimed DNC for a heat restriction. According to the agreement provision, to
qualify for DNC status, the first trip the train is late in arriving at the checkpoint would
be considered late, but subsequent trips would not. In subsequent trips in the days that
follow, during which the train arrives late at the checkpoint due to the same conditions,
those trips would not be counted against the train’s on-time performance. Those trips
would receive DNC status. However, the host railroad claimed that the trains did not
operate on August 1 and 2, meaning that the August 3 trip is considered the first
weather-related trip that the train is late in operating to El Paso. Consequently, the train
status should have been “late” and not “DNC.” This error contributed to the $8,409 in
overpayments for Train 1 in this segment for August 1999.

In a another instance, on August 3, 1999, Southern Pacific claimed that Train 6 on the
segment from Emeryville, California, to Sacramento, operated on time, claiming a total
of 32 minutes for station delays. However, based on the Amtrak delay report, most of
the station delay tolerance claimed by the host railroad resulted from mechanical
failure. Per the agreement, if a mechanical failure causes a train to operate late, the trip
should not be counted as having operated, in the monthly on-time-performance
calculation. This particular trip qualified as DNC and should not have been granted on-
time status. This error contributed to the $4,280 in overpayments for Train 6 in this
segment for August 1999.


Invoices contained incorrect departure and arrival times.

In about 7 percent of the total errors, Southern Pacific did not use accurate arrival and
departure times in its on-time-performance calculations. For example, the host railroad
reported that on August 15, 1999, Train 776 departed at 4:35 p.m. from San Luis Obispo
to Moorpark, California. But the Amtrak delay report listed the actual departure as

12A “Do Not Count” status is allowed when certain operating conditions are met. The conditions include
such occurrences as Amtrak locomotive failures, severe weather, vehicle or trespasser blockages or
strikes, and train annulments (cancellations). When one of these conditions causes a train to arrive late at
a checkpoint, the train’s performance is not counted as late or operated in the monthly on-time-
performance calculation.
                                                                                                      8
                            Amtrak Office of Inspector General
              On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                        Report No. OIG-A-2012-013, June 29, 2012

6:35 a.m. from San Luis Obispo—a 10-hour difference. This error contributed to the
$7,035 in overpayments for the single-segment Train 776 for August 1999.

In another example, the host railroad reported that Trains 759/769 arrived at Goleta,
from Moorpark, California at 12:52 p.m. on August 24, 1999. However, the Amtrak
delay report indicated that the train arrived at Goleta at 1:01 p.m.—9 minutes later. This
difference caused the train status to change from on time to late. This error contributed
to the $1,146 in overpayments for single-segment Trains 759/76913 for August 1999.



Invoices included inaccurate train status claims that should have been reported as on
time.

Southern Pacific did not claim on-time status when it was justified in doing so. This
accounted for about 6 percent of the total errors. For instance, in its August 1999
invoice, Train 779 was shown as late to San Luis Obispo on August 1; our calculation
indicated that it should have been counted as arriving on time. This change would have
resulted in underpayments for the single-segment Train 779. However, due to other
invoice errors during the month, Amtrak overpaid $20,724 to the host railroad for
Train 779 for August 1999.



RECOMMENDATION

We recommend that Amtrak’s Chief Financial Officer take action to recover the
$1,430,113 that Amtrak overpaid to the host railroad for on-time-performance
incentives.



MANAGEMENT COMMENTS AND OIG RESPONSE

In commenting on a draft of this report, management stated that the report provides
useful information on which Amtrak management can take action. Management also
indicated its intent to enter into appropriate conversations with Union Pacific once this


13Train 769 operates Monday through Friday while Train 759 runs on Saturday and Sunday. Both trains
serve the route between San Diego and Paso Robles, California.
                                                                                      9
                          Amtrak Office of Inspector General
            On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                      Report No. OIG-A-2012-013, June 29, 2012

report is issued. Specifically, management stated that the Managing Deputy General
Counsel, on behalf of Amtrak’s Transportation and Finance departments, will pursue
any amounts that are recoverable under the law and within the terms of the applicable
operating agreement between Amtrak and the host railroad. Additionally, management
stated that it remains committed to making improvements to the host railroad invoice
administration review process, and is currently in the process of implementing specific
actions to perform complete and thorough invoice reviews prior to payment.
Management’s comments meet the intent of our recommendation.

Amtrak’s letter commenting on the draft report is reprinted as Appendix III.
                                                                                                       10
                            Amtrak Office of Inspector General
              On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                        Report No. OIG-A-2012-013, June 29, 2012


                                              Appendix I

                           SCOPE AND METHODOLOGY

This report provides the results of an OIG review to determine the accuracy of Southern
Pacific’s on-time-performance (OTP) incentives invoiced to Amtrak from January 1997
through December 1999. We performed our work from October 200914 through
March 2012. We provided a draft of this report to Amtrak management on April 6, 2012,
and requested a written response within 30 calendar days. Management provided its
response. Certain information in this report has been omitted due to the confidential
nature of the information.

For the 36-month period from January 1997                                                   Total
through December 1999, Southern Pacific                SP OTP Gross Billing             $ 1,963,630
invoiced $2,387,820, and Amtrak paid a net             Add: Prior Period Adjustments        424,190
                                                       Total SP OTP Billed              $ 2,387,820
amount of $1,476,524.15                                Amtrak Exception Notices          (1,006,528)
                                                       Amtrak OTP Payments              $ 1,381,292
The authority to perform an audit of                   Add: Jan 97 Penalty                   95,232
Southern Pacific’s invoices is established in          Amtrak Net OTP Payments          $ 1,476,524
Section 5.2(b) of the amendment agreement with Amtrak. This section allows Amtrak to
audit and evaluate any payment relating to either financial or operational issues. Under
Article V, Section 5.2(c), the host railroad is required to maintain supporting accounting,
operating, and mechanical department records and any other data related to the

14 This audit started in November 1999 with the intention of auditing on a sample basis, but the audit was
delayed when Union Pacific insisted on a 100 percent review. [After a merger, Union Pacific is now
responsible for Southern Pacific’s invoices to Amtrak. (See footnote 2.)] In December 2004, we presented
the preliminary audit results to Union Pacific, but due to subpoena-related investigative work, we were
unable to proceed with discussion of our audit findings until 2008. In February 2008 we again presented
our preliminary audit results to Union Pacific, but no resolution of the audit findings was reached. In
October 2009 we restarted the audit to finalize our work.
15 We added the January 1997 penalty amount in arriving at Amtrak’s $1,476,524 in net OTP payments.

We did this because under the performance penalty provision in appendix V, Section D, of the
amendment agreement, the January 1997 penalty amount cannot be applied against incentives earned
within the audit period. The penalty provision states that penalties can only be assessed up to the amount
of performance payments earned in the preceding 12-month period. Therefore, in order to apply the
January 1997 penalty amount, we would have had to apply it to performance incentives earned in an
earlier audit period—January 1996 through December 1996—that had been closed and settled and that is
beyond our audit scope.
                                                                                                        11
                            Amtrak Office of Inspector General
              On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                        Report No. OIG-A-2012-013, June 29, 2012

performance of services for Amtrak, and those records are to be made available for
inspection and copying.

To determine if Southern Pacific’s on-time-performance incentives were accurately
invoiced, we performed substantive testing. We reviewed the operating agreement and
its amendments to establish our criteria, focusing on sections that relate to the invoicing
of OTP incentives. We then reviewed relevant prior audit reports, such as Audit
Report 99-501, which included the review of OTP incentive payments to Southern
Pacific; and Audit Report 401-2008, regarding management’s internal controls (see Prior
Audit Reports, below). We also reviewed the host railroad’s OTP reports and supporting
documents included in its invoice and compared its claims against available source
documents, including Amtrak delay reports and Train Operations Support System16
(TOSS) data. Finally, we identified any errors and calculated the overbilled and/or
under-billed amounts resulting from inaccurate host railroad invoices.

Our review identified over $3.8 million in potential errors, which we classified into four
categories (see Figure 1)17. We focused our audit on the 13 months from December 1998
through December 1999 because this period contained a significant dollar amount of
OTP incentive payments that would be available for recovery if the billing was
inaccurate. Over the 13-month period, Amtrak paid the host railroad $1,955,700 of the
$2,437,755 in OTP incentives invoiced. However, had the host railroad invoiced Amtrak
accurately based on OTP agreement provisions, it would have been clear that the host
railroad was not entitled to any incentive payments during the 13-month period, and its
calculation should have shown ($1,855,436) in OTP penalties. Amtrak is entitled to
recover the penalties under appendix V, Section D, of the amendment agreement, up to
the amount of incentives earned during the previous 12-month period. The previous 12-
month-period incentive earnings restriction, in this situation, limits the recovery to
about $1.4 million of the $3.8 million in potential errors.

Our work was performed in accordance with generally accepted government auditing
standards. These standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained

16 The Train Operations Support System is managed by Amtrak and contains data on train operations,
including departure and arrival times, trip delays, and reasons for the delays.
17 For instances in which there was more than one error type, we used the error that had the greatest

impact on the on-time-performance calculation for classification.
                                                                                                        12
                             Amtrak Office of Inspector General
               On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                         Report No. OIG-A-2012-013, June 29, 2012

provides a reasonable basis for our findings and conclusions based on our audit
objective.

Internal Controls

We did not review Southern Pacific’s internal control structure from March 1997 to
January 2000, the time period during which it submitted its invoices. However, we
performed and relied on substantive testing to determine the dollar amounts
attributable to errors invoiced by the host railroad. In addition, while we did not assess
Amtrak’s internal controls in its monthly invoice reviews, we did rely on our prior
audit work, which had addressed the adequacy of those controls.


Computer-Processed Data

We used computerized Amtrak TOSS data to verify the OTP data in Southern Pacific’s
invoices. However, where Amtrak delay reports were available, we used them as the
primary source to support our work. Although we did not verify the reliability of the
TOSS data, Union Pacific18 has in the past accepted this information as an alternate form
of support in the absence of Amtrak delay reports. Therefore, we considered the data
sufficiently reliable for the purpose of our audit objective.

We also used computer-processed data contained in the hard copies of Amtrak’s
electronic records of Southern Pacific’s invoices. To test the validity of the data, we
compared Amtrak’s records against the host railroad’s invoices. We then compared the
total amount paid on Amtrak’s records against the total amount paid in the Accounts
Payable module of Amtrak’s Accounting Materials and Purchasing System19 for a
judgmental sample within our audit period. Based on these tests, we concluded that the
data were sufficiently reliable to be used in meeting the assignment’s objective.




18 As previously discussed in footnote 2, after a merger, the Union Pacific is now responsible for Southern
Pacific’s invoices to Amtrak.
19 The system was a comprehensive set of software modules that support the accounting, inventory, and

purchasing business functions. Material, supplies, and services were requested, ordered, received, and
paid for through the system.
                                                                                         13
                               Amtrak Office of Inspector General
                 On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                           Report No. OIG-A-2012-013, June 29, 2012

Prior Audit Reports

We reviewed the following audit reports and used information from them in
conducting our audit:

Amtrak Invoice Review: Inaccurate Invoices Were Paid, But Progress is Being Made to Improve
the Invoice-Review Process (Report No. OIG-A-2012-005, February 16, 2012)

On-Time-Performance Incentives: Inaccurate Invoices were Paid Due to Weaknesses in
Amtrak’s Invoice-Review Process (Report No. OIG-A-2012-004, February 15, 2012)

On-Time-Performance Incentives: Inaccurate Invoices Were Paid Due to Long-standing
Weaknesses in Amtrak’s Invoice-Review Process (Audit Report No. 403-2010, April 21, 2011)

CSX On-Time-Performance Incentives: Inaccurate Invoices and Lack of Amtrak Management
Review Lead to Overpayments (Audit Report No. 406-2005, March 30, 2010)

Host RRCA20 & Operations Management Controls (Audit Report No. 401-2008, August 21,
2008)

Union Pacific Railroad On-time Performance January 2000—December 2001 (Audit Report
No. 504-2003, July 22, 2003)

Southern Pacific Transportation Corporation Proposed Dollar Adjustments in Billing
Statements August 1993–December 1996 (Audit Report No. 99-501, December 23, 1998)




20   RRCA stands for Railroad Contract Administration.
                                                                                           14
                          Amtrak Office of Inspector General
            On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                      Report No. OIG-A-2012-013, June 29, 2012


                                       Appendix II

EXCERPT FROM RECENT REPORT DISCUSSING AMTRAK’S
PROGRESS IN IMPROVING ITS INVOICE-REVIEW PROCESS

From Amtrak Invoice Review: Inaccurate Invoices Were Paid, But Progress is Being Made to
Improve the Invoice-Review Process (Report No. OIG-A-2012-005, February 16, 2012).
                                                                15
              Amtrak Office of Inspector General
On-Time-Performance Incentives: Inaccurate Invoices Were Paid
          Report No. OIG-A-2012-013, June 29, 2012
                                                                16
              Amtrak Office of Inspector General
On-Time-Performance Incentives: Inaccurate Invoices Were Paid
          Report No. OIG-A-2012-013, June 29, 2012
                                                                17
              Amtrak Office of Inspector General
On-Time-Performance Incentives: Inaccurate Invoices Were Paid
          Report No. OIG-A-2012-013, June 29, 2012

                        Appendix III

       COMMENTS FROM AMTRAK’S
     ACTING CHIEF FINANCIAL OFFICER
                                                                       18
                     Amtrak Office of Inspector General
       On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                 Report No. OIG-A-2012-013, June 29, 2012


                                Appendix IV

                          ABBREVIATIONS
AAC     Amendment Agreement Change

DNC     do not count

OIG     Office of Inspector General

OTP     on-time performance

TOSS    Train Operations Support System

XOY     Oakland Yard
                                                                              19
                            Amtrak Office of Inspector General
              On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                        Report No. OIG-A-2012-013, June 29, 2012



                                      Appendix V

                             OIG TEAM MEMBERS

See See Young               Senior Director, Audits

Anil Gunaratne              Senior Auditor

Edgardo Carlos              Senior Auditor

Trig Alonso                 Auditor

Michael P. Fruitman         Principal Communications Officer
                                                                                        20
                        Amtrak Office of Inspector General
          On-Time-Performance Incentives: Inaccurate Invoices Were Paid
                    Report No. OIG-A-2012-013, June 29, 2012


          OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission      Amtrak OIG’s mission is to

                             conduct and supervise independent and objective
                              audits, inspections, evaluations, and investigations
                              relating to Amtrak programs and operations;

                             promote economy, effectiveness, and efficiency within
                              Amtrak;

                             prevent and detect fraud, waste, and abuse in Amtrak's
                              programs and operations;

                             review security and safety policies and programs; and

                             review and make recommendations regarding existing
                              and proposed legislation and regulations relating to
                              Amtrak's programs and operations.

Obtaining Copies of OIG    Available at our website: www.amtrakoig.gov
Reports and Testimony
To Report Fraud, Waste,    Report suspicious or illegal activities to the OIG Hotline
and Abuse                  (you can remain anonymous):

                          Web:      www.amtrakoig.gov/hotline
                          Phone:    800-468-5469
Congressional and         E. Bret Coulson, Senior Director
Public Affairs            Congressional and Public Affairs
                          Mail:     Amtrak OIG
                                    10 G Street, N.E., 3W-300
                                    Washington, D.C. 20002

                          Phone:    202-906-4134
                          Email:    bret.coulson@amtrakoig.gov
